   May 24, 2004




Acquisition
Management of the Centrally Billed
Travel Card Program at Defense
Agencies
(D-2004-083)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at https://www.dodig.osd.mil/audit/reports
  or contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CBA                          Centrally Billed Account
CTO                          Commercial Travel Office
ECIE                         Executive Council on Integrity and Efficiency
GAO                          General Accounting Office
PCIE                         President’s Council on Integrity and Efficiency
TCPMO                        Travel Card Program Management Office
USD(C)/CFO                   Under Secretary of Defense (Comptroller)/Chief
                               Financial Officer
WHS                          Washington Headquarters Services
          Office of the Inspector General of the Department of Defense
Report No. D-2004-083                                                       May 24, 2004
   (Project No. D2003CK-0125)

               Management of the Centrally Billed Travel Card
                      Program at Defense Agencies



                                Executive Summary

Who Should Read This Report and Why? Policy makers, senior managers, travel card
program managers, approving officials, and cardholders should read this report to help
them identify potential problem areas in their centrally billed travel card programs. This
report provides information that may identify internal control weaknesses of the travel
card program, some of which may be program wide. After reading this report, managers
should be able to assess their own centrally billed travel card program and make the
adjustments needed to strengthen their program.

Background. The DoD travel card program is part of the SmartPay program, which
includes the Government purchase, travel, and fleet charge cards. In March 1998 the
Deputy Secretary of Defense designated the Defense Finance and Accounting Service as
the program management office for the DoD travel card program. DoD uses two types of
travel charge card accounts: centrally billed travel accounts and individual accounts.
Centrally billed travel accounts are the responsibility of the Government and individually
billed accounts are the responsibility of an individual. Defense agencies establish credit
limits for their centrally billed travel accounts at the central account level when the
account is established. The General Services Administration reported that in FY 2003
the bank processed 3.8 million transactions valued at $1.4 billion against DoD centrally
billed travel accounts. The General Services Administration also reported that the bank
processed 171,138 transactions valued at $73.8 million on Defense agency centrally
billed accounts.

Results. Controls over centrally billed travel accounts were adequate at the Joint Chiefs
of Staff, Defense Commissary Agency, Defense Security Cooperation Agency, and the
National Defense University based on a review of documentation for the selected
transactions. However, improvements were needed at the Travel Card Program
Management Office and at Washington Headquarters Services.

The Travel Card Program Management Office did not monitor centrally billed travel
accounts. Specifically, 96 of the 286 central accounts and 462 of the 817 transaction
accounts at Defense agencies were not used in FY 2003. In addition, credit limits on 178
of the 190 central accounts that were used were higher than needed. As a result, there
were more centrally billed travel accounts than necessary, credit limits were about $457
million higher than needed, and the Department was placed at increased risk for financial
loss. The Under Secretary of Defense (Comptroller)/Chief Financial Officer should issue
guidance on establishing and monitoring centrally billed travel accounts. The Travel
Card Program Management Office should close unused centrally billed travel accounts,
reduce credit limits and review the centrally billed travel accounts semi-annually and


                                            i
close unused accounts and adjust credit limits as necessary. For detailed
recommendations, see finding A.

Washington Headquarters Services did not properly establish and appropriately use a
centrally billed travel account. Specifically, the Budget and Finance Directorate opened
five transaction accounts instead of using purchase cards and did not have adequate
supporting documentation for purchases. As a result, non-travel related transactions,
totaling about $11,600, were processed on three of the five Washington Headquarters
Services transaction accounts. Additionally, travel related charges of about $158,400
were made and approved on these accounts without proper documentation. The Director,
Washington Headquarters Services, should develop specific guidance on establishing and
using centrally billed travel accounts and route all future requests for participation in the
charge card program through the appropriate program management office. Additionally,
the Director, Washington Headquarters Services, should initiate a review and take
appropriate actions against the personnel responsible for inappropriately opening and
using centrally billed transaction accounts and for using a travel agent other than the
contracted commercial travel office for official travel services. For detailed
recommendations, see finding B.

The Director, Budget and Finance, Washington Headquarters Services, did not use the
contracted Commercial Travel Office during August and September 2002 to provide
required travel services. As a result, the Director, Budget and Finance violated the
commercial travel office contract and the Joint Travel Regulation, and incurred excess
travel expenses of about $44,000. For details, see finding C.

Management Comments and Audit Response. The Office of the Under Secretary of
Defense (Comptroller) and the Director, Washington Headquarters Services, concurred
with the recommendations. The Under Secretary of Defense (Comptroller) agreed to
issue guidance, close unused accounts, have credit limits reduced, review accounts semi-
annually, and ensure that inappropriate merchant category codes are blocked by the bank.
The Director, Washington Headquarters Services agreed to develop specific guidance for
obtaining and using centrally billed travel accounts, route all future requests for
participation in the charge card program through the appropriate program management
office, and to initiate a review and take appropriate action. The corrective actions
initiated will improve the controls for the centrally billed travel card program.




                                             ii
Table of Contents

Executive Summary                                                           i

Background                                                                 1

Objectives                                                                 3

Findings
     A. Control of Centrally Billed Accounts                                4
     B. Use of Travel Accounts at Washington Headquarters Services          9
     C. Use of Central Travel Office by Washington Headquarters Services   15

Appendixes
     A. Scope and Methodology                                              17
         Management Control Program Review                                 18
         Prior Coverage                                                    19
     B. Report Distribution                                                20

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer      23
     Washington Headquarters Services                                      26
     National Defense University                                           27
Background
    Travel Card Program. The DoD travel card program is part of the SmartPay
    program, which includes the Government purchase, travel, and fleet charge cards.
    The Under Secretary of Defense (Comptroller)/Chief Financial Officer
    (USD[C]/CFO) is the proponent of the DoD travel card program. In March 1998
    the Deputy Secretary of Defense designated the Defense Finance and Accounting
    Service as the Travel Card Program Management Office (TCPMO). The TCPMO
    manages the day-to-day operations of the DoD travel card program. Additionally,
    the Services and Defense agencies perform daily travel card management through
    Component program managers. The Component program managers have agency
    program coordinators that execute the DoD travel card program. The General
    Services Administration reported for FY 2003 that DoD-wide centrally billed
    travel accounts had 3.8 million transactions, with $1.4 billion in total charges and
    8,998 cardholders. The General Services Administration also reported that the
    bank processed 171,138 transactions, valued at $73.8 million, on Defense agency
    centrally billed travel accounts.

    DoD uses two types of travel charge card accounts: centrally billed accounts
    (CBAs) and individually billed accounts. The bank issues CBAs to DoD
    organizations, and payment of charges is a governmental liability. The CBAs
    contain a unique prefix that identifies the account as eligible for Government
    travel rates, city pair rates, and tax exemption. The CBAs consist of two types of
    accounts: a central account where the billing and payment occurs, and transaction
    accounts, which are used to process transactions related to official Government
    travel. Credit limits are established for both central and transaction accounts.
    The credit limit on the transaction account does not have to match the related
    central account credit limit. However, the total purchases on all of the transaction
    accounts under a central account cannot exceed the central account credit limit.
    Credit limits are refreshed only when the contract bank receives payment against
    the balance due on the central account.
    Congressional Interest. Weaknesses in the DoD charge card program came to
    the attention of both the Congress and the General Accounting Office (GAO)
    during 2001 and 2002. The House of Representatives Subcommittee on
    Government Efficiency, Financial Management and Intergovernmental Relations,
    Committee on Government Reform, conducted hearings on July 17, 2002, and
    October 8, 2002. At these hearings, GAO testified on program abuses within the
    Navy and Army caused by a lack of management emphasis and oversight, as well
    as a lack of clear, detailed policies and procedures.

    On October 23, 2002, Congress enacted Public Law 107-248, “Department of
    Defense Appropriations Act, 2003,” that required the Secretary of Defense to
    evaluate the creditworthiness of an individual before issuing a travel card. The
    Appropriation Act required the Secretary of Defense to establish guidelines and
    procedures for disciplinary actions to be taken against Department personnel for
    improper, fraudulent, or abusive use of government travel charge cards. The
    Appropriation Act also required that the guidelines include appropriate



                                         1
disciplinary actions for use of charge cards for purposes, and at establishments,
that are inconsistent with the official business of the Department or with
applicable standards of conduct.

On November 24, 2003, Congress clarified the FY 2003 Appropriations Act by
enacting Public Law 108-136, “National Defense Authorization Act for Fiscal
Year 2004.” The creditworthiness examination should include a review of the
individual’s credit history that is available in credit records. An individual may
not be issued a Defense travel card if the individual is found not to be
creditworthy as a result of the evaluation. The Authorization Act also required
that the Secretary of Defense prescribe regulations that would provide appropriate
adverse personnel actions or other punishment for employees or members of the
armed forces that violate such regulations, are negligent, or engage in misuse,
abuse, or fraud with respect to a Defense travel card.

Charge Card Task Force. On March 19, 2002, the USD(C)/CFO established a
DoD Charge Card Task Force (Task Force) to evaluate the purchase and travel
card programs of the Department and to develop recommendations for
improvement. On June 27, 2002, the Task Force issued the Department of
Defense Charge Card Task Force Final Report. The Task Force focused on
management emphasis and organizational culture, compliance, and process and
workforce developments. The Task Force developed 25 recommendations to
improve the charge card program of the Department. Recommendations included
increasing management emphasis and implementing improved management
metrics, strengthening internal controls, increasing the tools available to managers
for enforcing those controls, and enhancing the capability of the workforce to
accomplish assigned charge card responsibilities.

President’s Council on Integrity and Efficiency. The President’s Council on
Integrity and Efficiency (PCIE) and the Executive Council on Integrity and
Efficiency (ECIE) Inspection and Evaluation Committee issued in the Fall of
2003, the guide “Common Problems and Uncommon Solutions: How OIGs Are
Helping Improve Federal Travel Card Programs,” which was intended to enhance
oversight of the Federal Travel Card Program. This guide contained a list of the
more common problems related to the use of travel cards to include a lack of
adequate written policies, procedures, and training for the travel card program,
and failure to routinely review and close inactive accounts. The guide asserted
that written policies and procedures are a critical element of the travel card
program of any agency because they provide guidance and ensure that the
program is administered consistently. The policies should include cardholder
responsibilities, service provider responsibilities, and the oversight
responsibilities of agency/organization program coordinators, immediate
supervisors, and management.




                                     2
Objectives
           The overall objective was to determine whether Defense agencies1 properly
           administered and appropriately used the centrally billed travel accounts including
           unit cards. Specifically, the audit was to determine whether the systems and
           controls were adequate to prevent fraudulent and/or improper use of the accounts.
           We also reviewed the management control program as it related to the overall
           objective. See Appendix A for a discussion of the audit scope and methodology,
           our review of the management control program, and prior coverage related to the
           audit objectives.




1
    We included 35 Defense agencies, Defense field activities, and organizations in our review. However, for
    ease of reading we will use the term “Defense agencies” to refer to all types of organizations.


                                                       3
     A. Control of Centrally Billed Accounts
            The Travel Card Program Management Office did not monitor centrally
            billed travel accounts (CBAs). Specifically, 96 of the 286 CBA central
            accounts and 462 of the 817 CBA transaction accounts at Defense
            agencies were not used in FY 2003. In addition, credit limits on 178 of
            the 190 CBA central accounts that were used were higher than needed.
            This occurred because the Under Secretary of Defense
            (Comptroller)/Chief Financial Officer (USD (C)/CFO) did not issue
            guidance on opening and monitoring CBAs. Furthermore, the Travel Card
            Program Management Office did not fully comply with the directions
            from the USD(C)/CFO to periodically review account status. As a result,
            there were more CBAs than necessary, credit limits were about $457
            million higher than needed, and the Department was placed at increased
            risk for financial loss.


Program Guidance
     The DoD Charge Card Task Force Final Report, June 27, 2002, contained 25
     recommendations designed to significantly improve the charge card programs of
     the Department. Of those recommendations, 12 focused on the travel card
     program. One recommendation was to review the list of current travel
     cardholders and determine whether all cardholders had a valid need for the card.
     As a result of Task Force recommendations, USD(C)/CFO issued a memorandum
     July 19, 2002, “Charge Card Task Force Recommendation – Cancellation of
     Travel Charge Card Accounts.” In the memorandum, the USD(C)/CFO directed
     the DoD travel charge card program manager to semi-annually obtain from the
     card-issuing bank a list of active travel charge cards that had not been used in the
     last 12 months. The travel card program manager was to provide this list to the
     respective Component program managers for review and cancellation, if not
     needed. Additionally, as a result of congressional interest and the Task Force
     report, the Office of Management and Budget issued a memorandum on
     October 15, 2002, “Increased Oversight for Government Purchase and Travel
     Cards,” stating that DoD would review card accounts twice a year to ensure that
     inactive card accounts are canceled on an ongoing basis.


Centrally Billed Account Oversight
     The Travel Card Program Management Office did not monitor CBAs.
     Specifically, 96 of the 286 CBA central accounts and 462 (56 percent) of the 817
     CBA transaction accounts at Defense agencies were not used in FY 2003. In
     addition, credit limits were about $457 million higher than needed.

     Unused Accounts. 96 (33 percent) of the 286 CBA central accounts and 462
     (56 percent) of the 817 CBA transaction accounts at Defense agencies were not
     used in FY 2003. The 96 CBA central accounts that were not used in FY 2003
     had about $295 million in available credit that was not needed by the Department.

                                          4
    These credit limits ranged from $20,000 to $16 million. Personnel from the
    TCPMO stated they were not responsible for monitoring CBAs. However, the
    USD(C)/CFO and Office of Management and Budget both issued memorandums
    stating that DoD would be reviewing accounts twice a year to ensure unused
    accounts were canceled. If the TCPMO had followed USD(C)/CFO and Office of
    Management and Budget guidance, the unused accounts would have been closed
    the first half of FY 2003 and the risk to the Department would have been reduced.

    Credit Limits. CBA central account credit limits were higher than needed. Of
    the 190 CBA central accounts used, 178 (about 93 percent) had established credit
    limits that ranged from one to 5,772 times the maximum monthly purchase
    amounts for FY 2003. Credit limits on the 190 CBA central accounts used ranged
    from $1,500 to $16 million totaling more than $180 million. The credit limits
    varied significantly and some agencies had credit limits that greatly exceeded
    their maximum monthly purchases in FY 2003. One agency had a credit limit of
    $16 million, but had only $10,908 in maximum monthly purchases. Another
    agency had a $250,000 credit limit with maximum monthly purchases of $612.
    The TCPMO personnel stated that they allowed each of the agencies to determine
    what the credit limits should be. The Bank of America guidance, “CBA
    Reference Guide,” issued in 2001, recommends setting the credit limit at two
    times the monthly allocation amount.

    Using the bank guidance, we determined that 178 of the 190 CBA central
    accounts that were used had credit limits of $162 million in excess of the
    maximum amounts spent on the accounts per cycle. Thus, the credit limits on the
    286 CBA central accounts were about $457 million higher than needed. Credit
    limits should be reasonable and based on mission needs to minimize the financial
    risk to the Department.


Need for Guidance
    The USD(C)/CFO did not issue guidance on establishing and monitoring CBAs,
    and the TCPMO did not fully comply with the directions from the USD(C)/CFO
    to periodically review account status.

    Guidance. Policies and procedures were not developed for establishing and
    monitoring CBAs. Written policies and procedures are a critical element for the
    travel card program to ensure that the program is administered consistently while
    keeping the risk of abuse at a minimum. GAO reported that individuals with
    histories of prior credit problems tended to be those who committed travel card
    fraud and abuse, and the FY 2003 DoD Appropriations Act required that credit
    worthiness be determined prior to the issuance of any travel charge card.

    The credit limits for Defense agencies varied significantly and some agencies had
    credit limits that greatly exceeded their maximum monthly purchases. Guidance
    requiring credit limits be established that are reasonable and based on mission
    need would have limited the financial risk of the Department. The USD(C)/CFO
    should develop policies and procedures for opening CBAs to include:



                                        5
    determining the credit worthiness of accountholders, establishing credit limits that
    are reasonable and based on mission need, and requiring the TCPMO to
    periodically review and monitor accounts.

    Compliance. USD(C)/CFO guidance in July 2002 and Office of Management
    and Budget guidance in October 2002 directed the TCPMO to review accounts
    for inactivity and cancel them on an ongoing basis as needed. However, the
    TCPMO did not fully comply with the directions from the USD(C)/CFO to
    review and close unused accounts on a semi-annual basis. The TCPMO primarily
    focused on individually billed accounts for which the individual is responsible for
    payment. The TCPMO maintained that the CBAs were well managed and did not
    pose a problem for DoD. The TCPMO did not request the Defense agencies to
    review a listing of their respective CBAs until October 2003. The request tasked
    Defense agencies to review their respective CBAs that did not have activity
    during the previous 18 months and then respond with a checklist of accounts that
    could be closed. Contrary to the USD(C)/CFO memorandum that stated accounts
    should be reviewed for no activity in the previous 12 months, the TCPMO
    requested the accounts be reviewed for the previous 18 months. This request
    resulted in agencies being able to maintain accounts that did not have activity
    during the previous 12 months, which is not in compliance with the USD(C)/CFO
    memorandum. For example, if an account was used during months 1 through 6
    and did not have activity during months 7 through 18, the account would not have
    been reviewed for closure, even though the account did not have activity during
    the previous 12 months. In fact, 44 of the CBA transaction accounts remaining
    open were not used in FY 2003 and remained open after the TCPMO review of
    unused accounts. The PCIE/ECIE Inspection and Evaluation Committee’s guide
    considered that a failure to routinely review inactive accounts was among the
    more common problems related to the use of Federal travel cards.

    The TCPMO should close CBAs that did not have activity during the previous
    12-month period and reduce credit limits to reasonable amounts that are based on
    mission need and review accounts semi-annually to close unused accounts and
    adjust credit limits as necessary. The USD(C)/CFO should include a requirement
    for periodic review and monitoring of all accounts by the TCPMO in policies and
    procedures.


Increased Risk
    Defense agencies had more CBA central and transaction accounts than necessary,
    CBA central account credit limits were at least $457 million higher than needed,
    and the Department was placed at increased risk for financial loss. However,
    despite directions from the USD(C)/CFO and recommendations from the DoD
    Task Force, the TCPMO did not monitor CBAs.

    The DoD Charge Card Task Force recommended that travel cards should be
    issued only to those who have a legitimate need for them. Furthermore, the Task
    Force stated that excess cards are an unnecessary administrative burden and
    expose the card-issuing bank to unnecessary risk of potential abuse and misuse of
    the cards. Additionally, the PCIE/ECIE Inspection and Evaluation Committee


                                         6
    reported in its guide that although there is no cost to Federal agencies to maintain
    open, inactive accounts, the risk for loss or misuse exists. The Inspection and
    Evaluation Committee recommended that inactive accounts be reviewed to
    determine whether some could be closed and establish a regular schedule to
    review accounts.


Management Actions Taken
    The USD(C)/CFO, in coordination with the TCPMO and the Military Services, is
    currently drafting proposed changes to the DoD Regulation 7000.14, “DoD
    Financial Management Regulation,” volume 9, “Travel Policy and Procedures,”
    chapter 3, “DoD Government Travel Charge Card,” regarding responsibilities for
    management of the CBAs.

    In October 2003 TCPMO requested Defense agencies review a listing of their
    respective CBAs that did not have activity during the previous 18 months and
    respond with a checklist of accounts that could be closed. As of November 2003,
    287 accounts that were not used have been closed. In November 2003 TCPMO
    requested Defense agencies to review account credit limits for reasonableness and
    reduce the limits, if possible.


Conclusion
    Written policies and procedures are a critical element for the travel card program
    to ensure that the program is administered consistently. The guidance for
    establishing and monitoring CBAs is needed to keep the risk of abuse and misuse
    to a minimum. Guidance needs to state policy and procedures on determining the
    credit worthiness of accountholders, establishing credit limits that are reasonable
    and based on mission need, and requiring periodic reviews and monitoring of
    accounts.


Recommendations and Management Comments
    A.1. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer issue guidance on opening and
    monitoring centrally billed accounts to include:

           a. Determining credit worthiness of all centrally billed
           accountholders.

    Principal Deputy and Deputy Under Secretary of Defense for Management
    Reform Comments. The Principal Deputy and Deputy Under Secretary of
    Defense for Management and Reform concurred and stated that a
    creditworthiness process should be in place for military personnel by September
    30, 2004, but that a process for civilian personnel requires labor union bargaining


                                         7
which could take over 2 years to implement. The Principal Deputy also stated
that the Department currently has no means available to readily determine the
creditworthiness of CBA custodians, and that neither the DoD Task Order nor the
General Services Administration SmartPay master contract provide for credit
checks on CBAs as it does for individually billed accounts.

       b. Establishing reasonable credit limits based on mission needs.

       c. Requiring annual reviews of centrally billed account credit limits
          to assess reasonableness.

Principal Deputy and Deputy Under Secretary of Defense for Management
Reform Comments. The Principal Deputy and Deputy Under Secretary of
Defense for Management and Reform concurred and stated that guidance will be
issued by May 31, 2004, that will include a requirement for Component Program
Managers to establish reasonable credit limits based on mission needs and a
requirement to perform annual reviews of CBA credit limits to evaluate
reasonableness.

A.2. We recommend that the Travel Card Program Management Office:

       a. Close unused centrally billed accounts that did not have activity
       during the previous 12 months.

       b. Reduce credit limits on centrally billed accounts to no more than
       two times the average monthly spent amounts, or to meet mission
       needs.

       c. Review centrally billed travel accounts semi-annually and close
       unused accounts and adjust credit limits as necessary.

Principal Deputy and Deputy Under Secretary of Defense for Management
Reform Comments. The Principal Deputy and Deputy Under Secretary of
Defense for Management and Reform concurred and stated that pursuant to
USD(C)/CFO guidance, the Program Manager, the TCPMO, in conjunction with
the Components, will close unused centrally billed accounts that did not have
activity during the previous 12 months; reduce credit limits on centrally billed
accounts to no more than two times the average monthly spent amounts, or to
meet mission needs; and review unused accounts semiannually. The estimated
completion date is August 31, 2004.




                                    8
           B. Use of Travel Cards at Washington
              Headquarters Services
           Washington Headquarters Services did not properly establish and
           appropriately use a CBA. Specifically, the Budget and Finance
           Directorate obtained five CBA transaction accounts instead of using
           purchase cards and did not have adequate supporting documentation for
           purchases. These conditions occurred because:

                   •   The Budget and Finance Directorate did not have specific
                       guidance for obtaining and using CBAs.

                   •   The Budget and Finance Directorate obtained the CBA
                       transaction accounts by meeting with bank personnel instead of
                       coordinating with the appropriate program management office.

                   •   The Budget and Finance Directorate did not implement an
                       appropriate travel card management structure.

           As a result, purchases unrelated to travel, were made with three of the five
           Washington Headquarters Services CBA transaction accounts totaling
           about $11,600. Travel related charges totaling about $158,400 were made
           and approved without proper documentation.


Travel Card Controls
    Management Controls. Office of Management and Budget Circular No. A-123,
    “Management Accountability and Control,” revised June 21, 1995, states that
    management controls are the organization, policies, and procedures used to
    reasonably ensure that programs and resources are protected from fraud, waste,
    and mismanagement. The agency head must establish controls, and managers and
    employees must have personal integrity. Specific management controls include
    separation of duties and supervision. Key duties and responsibilities in
    authorizing, processing, recording, and reviewing official agency transactions
    should be separated among individuals. Managers should exercise appropriate
    oversight to ensure individuals do not exceed or abuse their assigned authorities.

    DoD Travel Card Policy. DoD Financial Management Regulation, DoD
    7000.14-R, volume 9, chapter 3, “Department of Defense Government Travel
    Charge Card,” September 2000 and revised August 2003, prohibits the use of the
    travel card for items other than those incident to official travel. It also provides
    an outline of responsibilities for key organizational travel card program
    personnel, such as the Component program manager and the agency program
    coordinator. The Component program manager is responsible for establishing
    and maintaining the organizational structure and establishing and managing the
    DoD travel card program in compliance with the DoD Financial Management
    Regulation. Additionally, the regulation states the agency program coordinator is
    responsible


                                         9
    for reconciling charges that appear on the monthly statement, and reporting the
    day-to-day operations and program execution and management to their respective
    Component program manager.


Card Establishment
    WHS did not properly obtain and appropriately use a CBA. Specifically, WHS
    obtained CBA transaction accounts instead of using existing purchase cards. The
    WHS Director, Budget and Finance, obtained CBA transaction accounts,
    including one for himself, to be used as purchase cards. According to the
    electronic access system of the bank, WHS obtained five CBA transaction
    accounts, however, only three of the five were activated and used. The WHS
    Director, Budget and Finance, stated that the CBA transaction account cards were
    meant to be purchase cards that could be used for expenditures such as hosting
    official events and extending official courtesies to civilian or military officials of
    foreign governments and other distinguished and prominent citizens. The CBA
    transaction account cards were used for these types of purchases instead of only
    travel related expenses even though the cards for the CBA transaction accounts
    are clearly marked “For Official Government Travel Only” on the front and
    display a picture of an airplane.


Supporting Documentation
    WHS did not have adequate supporting documentation for purchases. Purchases
    made with the Director’s CBA transaction account from May 2002 through June
    2003 were not adequately supported. The cardholders charged $11,636 for non-
    travel related items and the Director charged $158,400 for travel related items
    without proper documentation of the purchases. For example, the Director rented
    a forklift and charged it to his CBA transaction account. Although the forklift
    rental should not have been charged on a travel account, the cardholder also did
    not have documentation to justify or authorize the charge.

    The Director also made travel related charges with his CBA transaction account
    that were not supported with adequate documentation. These travel related
    expenses included transportation for the attendees of the September 2002
    Pentagon memorial service and lodging for individuals providing support for the
    attendees. Based on mass burial regulations, the Director decided to pay for the
    transportation of up to three relatives of each victim. However, the Director did
    not have supporting documentation to match specific travelers with Pentagon
    victims. Additionally, lodging charges for the individuals providing support for
    the memorial service were not properly authorized, but were made and approved
    solely by the cardholder.




                                          10
Card Guidance and Procedures
    WHS did not have specific guidance for obtaining and using CBAs. WHS
    obtained the CBA central account and transaction accounts by meeting with bank
    personnel instead of coordinating with the appropriate program management
    office. WHS did not implement an appropriate travel card management structure.

    Guidance. WHS did not have specific guidance for obtaining and using CBAs.
    According to the person identified by the TCPMO as the CBA Component
    program manager, WHS did not issue guidance, policy, or procedures to obtain or
    use CBA central or transaction accounts. Although guidance is available from
    several sources, the individual did not have any guidance regarding CBAs. WHS
    should develop specific guidance for obtaining and using CBAs to include roles
    and responsibilities for everyone involved in the program.

    Obtaining Cards. WHS obtained the CBA central account and transaction
    accounts by meeting with bank personnel instead of coordinating with the
    appropriate program management office. According to the WHS Director,
    Budget and Finance, he personally met with bank personnel to have the CBA
    transaction accounts created to be used as purchase cards for expenditures such as
    social events and official gifts. However, the cards for these accounts were
    obtained from the travel card-issuing bank, not the purchase card-issuing bank.
    The proper way for the Director to obtain a purchase card would have been for
    him to request one from the WHS purchase card agency program coordinator. If
    WHS wanted to participate in the travel card program they should have informed
    the TCPMO, not just met with bank representatives. WHS should obtain
    approval to participate in the various charge card programs through the
    appropriate channels.

    Management Structure. WHS did not implement an appropriate CBA
    management structure. The Internal Control Office under the Budget and Finance
    Directorate administers the Government travel card program for the Office of the
    Secretary of Defense and supported activities. However, the Internal Control
    Office only administered the individually billed travel card program, not the CBA
    program. The Director, Budget and Finance, established the CBA program by
    opening a CBA with five transaction accounts to process transactions. Although
    none of the CBA officials were appointed in writing until January 2004, the
    TCPMO had the Representation Fund Manager listed as the Component program
    manager. However, the individual told us she was the acting agency program
    coordinator for all five accounts. According to the DoD Financial Management
    Regulation, the agency program coordinator is responsible for reconciling
    cardholder charges on the monthly statement.

    Based on the organizational chart, the Representation Fund Manager reports
    directly to the Director, Budget and Finance, and does not work in the Internal
    Control Office. Because the Director was a CBA transaction account holder, the
    coordinator was put in the position of reviewing and approving an immediate
    supervisor’s charges. This situation contributed to inappropriate charges going
    unchallenged. The coordinator reconciled charges for the other travel transaction
    account holders, but did not perform reconciliations of her supervisor’s charges.


                                        11
    The coordinator did not require documentation from her supervisor to support his
    purchases, but rather just processed the payment. For example, for the $4,358 in
    lodging charges, only a receipt for the lodging charge was provided, not a
    document authorizing the charge and a receipt to support the actual amount. The
    WHS should initiate a review and take appropriate administrative action for
    inappropriately obtaining and using CBA travel cards.

    According to the Comptroller General Decision, May 4, 2000, in order for
    individuals to be held pecuniary liable for negligent acts they must be appointed
    in writing and acknowledge the appointment. Because the individuals were not
    appointed in writing they cannot be held pecuniary liable for inaccurate payments.
    However, they can be held responsible for failure to adequately perform their
    duties and responsibilities.


Impact of Purchases
    WHS made non-travel related purchases of about $11,600 and travel related
    charges of about $158,400 that were approved without proper documentation.

    Non-Travel Expenses. WHS made purchases of about $11,600 with CBA
    transaction account cards that were not related to travel. CBA transaction
    accounts were used to charge 24 transactions valued at $11,636 that were
    unrelated to official travel. As shown in the following table, these transactions
    included purchases for art supplies, flowers, pen gift sets, receptions and
    meals,and a forklift rental. Transactions occurred on three of the five travel
    transaction accounts between May 2002 and June 2003.

                                  Non-Travel Related Purchases
          Transaction Type         Number of Transactions      Amount of Transactions
        Art Supplies*                         7                       $    167
        Flowers*                              1                            110
        Pen Gift Sets                         3                            158
        Receptions and Meals*                12                         10,484
        Forklift Rental*                      1                            717
                  Total                      24                        $11,636
    * Includes transaction(s) with blocked Merchant Category Code(s)


    From May 2002 through June 2003, WHS had 295 transactions that included the
    24 non-travel transactions. Two of the three pen sets were purchased from a
    jewelry store that had a merchant category code of 7399, indicating it was
    “Business Services – Not Elsewhere Classified.” However, in April 2001, the
    same jewelry store had a merchant category code of 5944, indicating it was
    “Jewelry, Watches, Clocks, and Silverware Stores.” Merchant category codes are
    a contractor-assigned categorization of the type of business the merchant is
    engaged in and the kinds of goods and services provided. Additionally, of the
    295 transactions, eight were made at merchants with merchant category codes the
    TCPMO identified as “blocked.” DoD blocks some codes as a measure to control


                                         12
    inappropriate card use. According to the list of blocked merchants provided by
    the TCPMO, eight transactions on the WHS transaction accounts were made at
    DoD “blocked” merchants and should have been declined at the point of sale.
    However, according to the electronic access system of the bank, none of the eight
    transactions were declined. The TCPMO should ensure the card issuing bank
    blocks the merchant category codes as requested.

    Travel Expenses. WHS made travel related charges of about $158,400 that were
    approved without proper documentation. Lodging and travel expenses for the
    Pentagon one-year memorial service held in September 2002 were charged on the
    Budget and Finance Director’s CBA transaction account. These charges included
    lodging costs of $4,358 for casualty assistant officers and bus drivers,
    transportation charges of $142,012 for Pentagon memorial attendees, and
    corresponding travel agent fees of $12,002. The WHS Director, Budget and
    Finance, decided to provide lodging for the bus drivers because the commercial
    bus company had offered their services at no charge. The WHS Director, Budget
    and Finance, provided the room receipts as documentation but failed to provide
    any further supporting documentation to indicate the charges were appropriately
    authorized. Although travel for the memorial service was a valid
    expense,according to the WHS Director, Budget and Finance, the charges were
    never appropriately authorized.


Management Actions Taken
    On August 14, 2003, we contacted the WHS Director, Budget and Finance, and
    the Component program manager to inform them that use of the CBA transaction
    accounts for other than official travel is prohibited. We recommended that the
    CBA transaction accounts be closed immediately. The WHS Director, Budget
    and Finance, and the Component program manager agreed. Using the electronic
    access system of the bank, we verified that all five of the CBA transaction
    accounts were closed by August 27, 2003.


Recommendations and Management Comments
    B.1. We recommend the Director, Washington Headquarters Services:

          a. Develop specific guidance for obtaining and using centrally billed
    account travel cards to include Component Program Manager, Agency
    Program Coordinator, and cardholder roles and responsibilities.

    Director, Washington Headquarters Services Comments. The Director,
    Washington Headquarters Services concurred and stated that specific guidance
    for obtaining and using centrally billed travel accounts will be developed as
    recommended by September 30, 2004.

          b. Route all future requests for participation in the charge card
    programs through the appropriate program management office.


                                       13
Director, Washington Headquarters Services Comments. The Director,
Washington Headquarters Services concurred effective immediately.

       c. Initiate a review and take appropriate administrative action
against the personnel responsible for inappropriately obtaining and using
centrally billed travel accounts, and use of a travel agent other than the
contracted commercial travel office for official travel services. (See finding
C for details.)

Director, Washington Headquarters Services Comments. The Director,
Washington Headquarters Services concurred and stated that a review will be
initiated and appropriate action will be taken. Estimated completion date is
September 30, 2004.

B.2. We recommend the Travel Card Program Management Office ensure
the card-issuing bank blocked the merchant category codes as requested.

Principal Deputy and Deputy Under Secretary of Defense for Management
Reform Comments. The Principal Deputy and Deputy Under Secretary of
Defense for Management and Reform concurred and stated that the Program
Manager, TCPMO is currently working with the Bank to ensure that merchant
category codes which are blocked for individually billed accounts with DoD are
also blocked for CBAs within the Department. However, it should be recognized
that charges may be posted from a merchant with a blocked merchant category
code. There are several circumstances in which this can happen legitimately,
such as, an override where it is evident that the merchant is improperly assigned.
To monitor the process, TCPMO obtains and distributes a list of charges against
blocked merchant codes for further review by the Military Services. The TCPMO
is also working with the Bank to analyze the circumstances under which charges
against blocked codes occur. The estimated completion date is May 31, 2004.




                                    14
            C. Use of Commercial Travel Office by
               Washington Headquarters Services
            The Director, Budget and Finance, Washington Headquarters Services, did
            not use the contracted Commercial Travel Office during August and
            September 2002 to provide required travel services because of
            dissatisfaction with the prior service of the Commercial Travel Office. As
            a result, the Director, Budget and Finance, violated the commercial travel
            office contract and the Joint Travel Regulation, and incurred excess travel
            expenses of about $44,000.


Joint Travel Regulation
     The Joint Travel Regulation, volume 2, “DoD Civilian Personnel,” effective
     January 1, 2002, states that it is Government policy to use an available
     commercial travel office to arrange official travel. In addition, Change 442,
     effective August 1, 2002, Section C2207, “Arranging Official Travel,” states that
     it is DoD mandatory policy that employees use available Commercial Travel
     Offices (CTO) to arrange official travel, including transportation and rental cars.
     Additionally, commands are expected to take disciplinary action when employees
     or authorizing officials fail to follow the regulations concerning CTO use.

     DoD Instruction 4500.42, “DoD Passenger Transportation Reservation and
     Ticketing Services,” January 5, 1987, states that it is DoD policy to use a CTO to
     arrange official travel. In addition, DoD personnel are authorized to use DoD
     CTOs under contract to their respective organization.


Commercial Travel Office
     In December 1999, the Military Travel Management Command contracted with a
     commercial travel office to provide confirmed reservations for all commercial
     modes of transportation. Based on the contract, the contractor would provide the
     lowest available fares and rates meeting the needs of the customer and use the
     General Services Administration city pair contract fares. For this service, the
     contractor was to receive $7.74 for each transaction.

     WHS did not use the contracted CTO to provide required travel services. The
     Director, Budget and Finance, charged travel related expenses on his centrally
     billed transaction account for attendees at the Pentagon memorial through a
     private travel agency. The Director, Budget and Finance, stated he decided not to
     use the contracted CTO because he was unsatisfied with airfare prices and prior
     service when the CTO was used in October 2001 for the one-month Pentagon
     memorial service. The Director stated he could get better prices and friendlier
     service by using a private travel agency. However, he did not seek relief from
     using the CTO or file a complaint expressing his concerns with the CTO.



                                         15
    Additionally, because the tickets were purchased with a Government travel card
    for the individuals to attend an official Government-sponsored event, the tickets
    should have been purchased at the Government contract airfare prices.

    For the one-month memorial service the CTO was used to make necessary travel
    arrangements for individuals attending the ceremony. As a method of supporting
    tickets charged to CBA travel accounts, the CTO requires travel orders indicating
    the individual traveling, the point the travel originates from and the destination.
    The Director, Budget and Finance, provided the necessary travel orders for the
    one-month memorial, but did not provide travel orders for the one-year memorial.
    However, the private travel agency did not require orders. Therefore, adequate
    documentation did not exist to ensure travelers were actual relatives of the
    victims. The use of the CTO would have required the director to have adequate
    supporting documentation for the ticket purchases.


Impact of Purchases
    The actions of the WHS, Director, Budget and Finance, were not in accordance
    with the Joint Travel Regulations and the central travel office contract. He
    incurred excess travel expenses of about $44,000 because he used a private travel
    agent instead of the contracted CTO for the transportation of attendees to the
    Pentagon one-year memorial service. In August and September 2002, the
    Director, Budget and Finance, charged nonrefundable airline and rail tickets
    totaling $142,012 for the travelers tickets and incurred $12,002 in travel agent
    fees. Had the Director, Budget and Finance used the contracted CTO as required,
    the fees would only have been about $1,772.

    We determined Government airfare rates by obtaining the eligible City Pair
    Program scheduled rates published on the General Services Administration web
    site for each ticket. For tickets purchased for travel from originations not covered
    under the City Pair Program we used the actual price paid for the tickets. Based
    on this method, the total cost of these tickets would have been $111,698 instead
    of $142,012. Had the contracted CTO been used, the Department would have
    saved $30,317 in airfare costs. In addition, the Department would only have been
    charged $1,772 not $12,002 in travel agent fees. Although the contracted CTO
    has not requested this fee, they could be entitled to it. Thus, by the Director,
    Budget and Finance, using a private travel agent, excess expenses of about
    $44,088 were incurred.

    The Joint Travel Regulation states that it is mandatory that CTOs be used to
    arrange official travel, and that disciplinary action is to be taken against those
    who fail to follow the regulations concerning CTO use. In addition, the CTO
    contract states that no competing travel agency is permitted to provide official
    commercial travel services at any sites that are covered in the contract. WHS is a
    covered site. Therefore, the Director, Washington Headquarters Services, should
    initiate a review and take appropriate actions against the personnel that did not
    follow the regulations concerning CTO use.




                                         16
Appendix A. Scope and Methodology
   We reviewed the CBA travel card program and interviewed key program
   personnel at the Travel Card Program Management Office and the following five
   Defense agencies: Joint Chiefs of Staff, Defense Commissary Agency, Defense
   Security Cooperation Agency, Washington Headquarters Services, and the
   National Defense University. These agencies were selected for review because
   data mining identified some transactions that were indicative of known potential
   fraud indicators. We also interviewed representatives from Bank of America.

   We reviewed monthly travel activity reports that contained transactions for 35
   Defense agencies, field activities, and organizations for the months of November
   and December 2002, and April 2003 totaling 36,886 transactions valued at about
   $15 million. We selected five agencies from the initial review of the 35 Defense
   agencies, field activities, and organizations, and reviewed monthly centrally billed
   travel activity reports from November 2002 through May 2003. Based on
   identifying suspect transactions, we expanded this review for Washington
   Headquarters Services and reviewed transaction reports for May 2002 through
   June 2003. We obtained available supporting documentation for the suspect
   transactions.

   We also obtained specific documentation from the Travel Card Program
   Management Office on Defense agencies credit limits and inactive accounts. In
   addition, we obtained documentation from Bank of America representatives on
   the status of all Defense agencies open and closed CBAs for FY 2003.

   We did not identify any significant control issues at the Joint Chiefs of Staff,
   Defense Commissary Agency, the Defense Security Cooperation Agency, or the
   National Defense University.

   We performed this audit from May 2003 through March 2004 in accordance with
   generally accepted government auditing standards.

   Use of Computer-Processed Data. To achieve the travel card audit objective,
   we relied on computer-processed data provided directly from Bank of America
   that was extracted from their Electronic Account Government Ledger System.
   We also relied on computer-processed data provided from the Travel Card
   Program Management Office to determine spending and credit limits on the CBA
   travel accounts. We did not perform a formal reliability assessment of the
   computer-processed data. We did not find errors between the computer-processed
   data and cardholder supporting documentation that would preclude use of the
   computer-processed data to meet the audit objective or that would change the
   conclusions in this report.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage to
   improve processes and controls to reduce contract risk.




                                       17
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls over centrally billed travel accounts.
    Specifically, we reviewed controls over opening and using CBAs at the Joint
    Chiefs of Staff, the Defense Commissary Agency, the Defense Security
    Corporation Agency, the Washington Headquarters Services, and the National
    Defense University. Additionally, we reviewed Travel Card Program
    Management Office controls over opening and monitoring centrally billed travel
    accounts.

    Adequacy of Management Controls. We did not identify material management
    control weaknesses over the CBAs at the Joint Chiefs of Staff, the Defense
    Commissary Agency, the Defense Security Corporation Agency, or the National
    Defense University. However, we did identify material management control
    weaknesses for the Travel Card Program Management Office and the Washington
    Headquarters Services, as defined by DoD Instruction 5010.40. Travel Card
    Program Management Office controls for obtaining and monitoring CBA travel
    cards were not adequate to ensure that unused CBAs were closed and that credit
    limits were reasonable. Recommendation A.1., if implemented, will improve
    controls over the travel card program and could ensure unused accounts are
    closed and credit limits are reasonable. Washington Headquarters Services
    management controls were not adequate to ensure that a proper management
    structure existed or that CBAs were properly monitored or appropriately used.
    Recommendations B.1., and B.2., if implemented, could ensure that CBA travel
    cards are properly obtained and used, and that a proper management structure is
    established. A copy of the report will be provided to the senior official
    responsible for management controls at the Defense Finance and Accounting
    Service and the Office of the Secretary of Defense.

    Adequacy of Management’s Self-Evaluation. The Joint Chiefs of Staff, the
    Defense Commissary Agency, and the Defense Security Corporation Agency had
    performed adequate self-evaluations.

    The National Defense University had not performed a self-evaluation. The
    President of the National Defense University provided comments to the draft
    report that stated, “Once identified as a requirement, the National Defense
    University established a program for self-evaluation. The University has
    identified and OSD has trained key Management Control Coordinators. These
    key individuals assist in the management control evaluation of their respective
    organizations and report findings. The results will be the basis for the
    Commander’s Assurance Statement due later this fall.” Additionally, we did not
    identify a material management control weakness based on our review of the
    travel card centrally billed accounts.


                                       18
      Washington Headquarters Services officials relied on prior audit reports instead
      of performing a self-assessment. Additionally, they did not identify the travel
      card program as an assessable unit, and therefore did not identify or report the
      material management control weaknesses identified in the audit.

      The Travel Card Program Management Office had not performed a self-
      evaluation of management controls. In addition, it did not contribute input to the
      Defense Finance and Accounting Service statement of assurance. Consequently,
      the Travel Card Program Management Office did not identify or report the
      material management control weaknesses identified in the audit.


Prior Coverage
      Between 1999 and 2004, over 30 audit reports identified a wide range of
      implementation problems in the DoD Travel Card Program. However, only three
      of those reports specifically discussed centrally billed account travel cards.
      Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
      http://www.dodig.osd.mil/audit/reports.


GAO

      GAO Report No. GAO-04-88, “Travel Cards: Internal Control Weaknesses at
      DOD Led to Improper Use of First and Business Class Travel,” October 24, 2003.


Air Force

      AFAA Report No. F2003-0003-FB1000, “Centrally Billed Accounts for Travel,”
      April 24, 2003.

      AFAA Report No. F2002-0001-B05400, “Duplicate Airfare Payments,”
      December 28, 2001.




                                          19
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Procurement and Acquisition
Director, Washington Headquarters Services

Joint Staff
Director, Joint Chiefs of Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Commissary Agency
Director, Defense Finance and Accounting Service
Director, Defense Security Cooperation Agency
President, National Defense University




                                          20
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        21
22
Under Secretary of Defense (Comptroller)/ Chief
Financial Officer Comments




                      23
24
25
Washington Headquarters Services Comments




                    26
National Defense University Comments
                                       Final Report
                                        Reference




                                       Comments
                                       added.
                                       See
                                       page 18.




                     27
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Contract Management Directorate prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.
David K. Steensma
Robert K. West
Joseph P. Doyle
Eric L. Lewis
Karen L. Jones-Moradian
Jacqueline J. Vos
Gloria A. Young
Brian R. McNamara
Amie M. Coffren
Theresa Tameris
